Highlights
Table of Contents




                    Management
                    of Cloud
                    Computing
                    Contracts and
Findings




                    Environment
Recommendations




                    Audit Report
                    Report Number
                    IT-AR-14-009

                    September 4, 2014
Appendices




                                        Print
Highlights
Table of Contents




                    Highlights                                                Background                                                          In addition, management did not appropriately monitor
                                                                                                                                                  applications to ensure system availability. Management also did
                                                                              The Council of Inspectors General on Integrity and Efficiency
                                                                                                                                                  not complete the required security analysis process for three
                                                                              asked inspectors general in the federal community to participate
                                                                                                                                                  cloud services reviewed and did not follow Postal Service policy
                                                                              in an audit of cloud computing contracts. Cloud computing
                                                                                                                                                  requiring cloud service providers to meet federal government
                                                                              provides on-demand network access to shared resources
                                                                                                                                                  guidelines. This occurred because no group is responsible for
Findings




                                                                              that can be rapidly released and allows customers to take
                                                                                                                                                  managing cloud services, and personnel were not aware of all
                         Cloud computing contracts                            advantage of cutting edge technologies at a reduced cost.
                                                                                                                                                  policy and contractual obligations.
                                                                              Hosted services are offered by providers that host physical
                               did not comply with                            servers in a different location. The audit was designed to
                                                                                                                                                  Without proper knowledge of and control over applications
                                                                              provide insight on how well the federal government is protecting
                          Postal Service standards.                                                                                               in the cloud environment, the Postal Service cannot properly
                                                                              data and its progress in moving towards cloud computing.
                                                                                                                                                  secure cloud computing technologies and is at increased risk
                                                                                                                                                  of unauthorized access and disclosure of sensitive data. We
                                                                              As a participant in this audit, our objectives were to determine
Recommendations




                                                                                                                                                  claimed $33,517,151 in contractual costs for the Postal Service
                                                                              if the U.S. Postal Service’s cloud service contracts comply with
                                                                                                                                                  not following their policy and contract requirements.
                                                                              applicable standards and evaluate management’s efforts to
                                                                              adopt cloud computing technologies.
                                                                                                                                                  What the OIG Recommended
                                                                              What the OIG Found                                                  We recommended management define “cloud computing”
                                                                                                                                                  and “hosted services,” develop an inventory of cloud services,
                                                                              The Postal Service’s cloud computing contracts did not comply
                                                                                                                                                  monitor suppliers and require them to be certified, and revise
                                                                              with all applicable Postal Service’s standards. Specifically, the
                                                                                                                                                  contracts to include security clauses. We also recommended
                                                                              Postal Service has not defined “cloud computing” and “hosted
                                                                                                                                                  management evaluate best practices for cloud computing
                                                                              services,” established an enterprise-wide inventory of cloud
                                                                                                                                                  contracts, complete the security analysis process, and ensure
                                                                              computing services, required suppliers and their employees
                                                                                                                                                  compliance with non-disclosure clauses.
Appendices




                                                                              to sign non-disclosure agreements, or included all required
                                                                              information security clauses in its contracts.




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                         Print                                     1
Highlights
                    Transmittal Letter


                                                                              September 4, 2014
Table of Contents




                                                                              MEMORANDUM FOR:	           JOHN T. EDGAR
                                                                                                         VICE PRESIDENT, INFORMATION TECHNOLOGY

                                                                                                         SUSAN M. BROWNELL
                                                                                                         VICE PRESIDENT, SUPPLY MANAGEMENT

                                                                                                         CHARLES L. MCGANN
                                                                                                         MANAGER, CORPORATE INFORMATION SECURITY
Findings




                                                                              FROM: 			                  John E. Cihota
                                                                                                         Deputy Assistant Inspector General
                                                                                                          for Finance and Supply Management

                                                                              SUBJECT: 	                 Audit Report – Management of Cloud Computing Contracts and
                                                                                                         Environment (Report Number IT-AR-14-009)

                                                                              This report presents the results of our audit of the Management of Cloud Computing
Recommendations




                                                                              Contracts and Environment (Project Number 14BG007IT000).

                                                                              We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                                              questions or need additional information, please contact Sean Balduff, deputy director,
                                                                              Information Technology, or me at 703-248-2100.

                                                                              Attachment

                                                                              cc:	 Corporate Audit and Response Management
Appendices




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                    Print               2
Highlights
                    Table of Contents

                                                                              Cover.............................................................................................................1
                                                                              Highlights.......................................................................................................1
                                                                               Background.................................................................................................1
                                                                               What the OIG Found...................................................................................1
Table of Contents




                                                                               What the OIG Recommended.....................................................................1
                                                                              Transmittal Letter...........................................................................................2
                                                                              Findings.........................................................................................................4
                                                                               Introduction.................................................................................................4
                                                                               Conclusion..................................................................................................5
                                                                               Defining and Managing the Cloud Services Environment..........................6
                                                                               Defining Cloud Computing and Hosted Services........................................6
                                                                               Cloud Computing Enterprise-Wide Inventory..............................................6
                                                                               Monitoring of Applications ..........................................................................7
                                                                               Contract Management................................................................................8
Findings




                                                                               Information Security Contract Clauses.......................................................8
                                                                               Best Practices for Cloud Computing Contracts...........................................9
                                                                               Non-Disclosure Agreements ....................................................................10
                                                                               Compliance with the Federal Risk and Authorization Management
                                                                               Program and the Certification and Accreditation Process.........................10
                                                                              Recommendations...................................................................................... 11
Recommendations




                                                                               Management’s Comments........................................................................12
                                                                               Evaluation of Management’s Comments..................................................13
                                                                              Appendices..................................................................................................14
                                                                               Appendix A: Additional Information...........................................................15
                                                                                 Background ...........................................................................................15
                                                                                 Objective, Scope, and Methodology.......................................................15
                                                                                 Prior Audit Coverage..............................................................................17
                                                                               Appendix B: Management’s Comments....................................................18
                                                                              Contact Information.....................................................................................24
Appendices




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                         Print                      3
Highlights
                    Findings                                                  Introduction
                                                                              This report presents the results of our audit of the Management of Cloud Computing Contracts and Environment
                                                                              (Project Number 14BG007IT000). The Council of Inspectors General on Integrity and Efficiency (CIGIE)1 Information Technology
                                                                              (IT) Committee2 asked IGs to participate in an audit of their agency’s cloud computing contracts. The information will be
                                                                              consolidated to determine how well the federal government is protecting data in the cloud environment and its progress in
                                                                              moving towards cloud computing technologies. Our objective was to determine if the U.S.Postal Service’s cloud service contracts
                                                                              comply with applicable standards and evaluate management’s efforts to adopt cloud computing technologies. See Appendix A for
                                                                              additional information about this audit.
Table of Contents




                                                                              The Office of Management and Budget’s (OMB)3 “Cloud First” policy4 requires federal agencies to default to cloud-based solutions
                                                                              whenever there is a secure, reliable, and cost-effective cloud option. Effectively procuring and managing cloud computing
                                                                              services requires agencies to develop contracts that address business and security risks, as well as properly define and provide a
                                                                              mechanism to monitor agency and cloud service providers’ (CSP)5 responsibilities.




                                                                                                                                      THE NIST IDENTIFIES
                                                                                                                               FIVE ESSENTIAL CHARACTERISTICS
Findings




                                                                                                                                     OF CLOUD COMPUTING:



                                                                                                                   On-Demand Self-Service                                                     Measured Service
Recommendations




                                                                                                                            Broad Network Access                                  Rapid Elasticity

                                                                                                                                           Resource Pooling



                                                                                                                      HOVER OVER THE CHARACTERISTICS ABOVE FOR MORE DETAILS.




                                                                              1	   An independent entity that addresses integrity, economy, and effectiveness issues that transcend individual government agencies; and increases the professionalism and
Appendices




                                                                                   effectiveness of personnel by developing policies, standards, and approaches to aid the offices of inspectors general.
                                                                              2	   The CIGIE IT committee facilitates effective IT audits, evaluations, and investigations by inspectors general (IG) and provides a vehicle for the IG community to express
                                                                                   its perspective on government-wide IT operations.
                                                                              3	   The OMB is the largest component of the Executive Office, reporting directly to the president and helping a wide range of executive departments and agencies across the
                                                                                   federal government implement the commitments and priorities of the president.
                                                                              4	   25 Point Implementation Plan to Reform Federal Information Technology Management, dated December 9, 2010.
                                                                              5	   A person, organization, or entity responsible for making a service available to consumers.
                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                                                      Print                                               4
Highlights                                                                    Cloud computing means different things to different people; however, CIGIE uses the National Institute of Standards and
                                                                              Technology’s (NIST)6 definition.7 The NIST defines cloud computing as “a model for enabling ubiquitous, convenient, on-demand
                                                                              network access to a shared pool of configurable computing resources8 that can be rapidly provisioned and released with minimal
                                                                              management effort or service provider interaction.”

                                                                              The Federal Risk and Authorization Management Program (FedRAMP) enables federal agencies to manage service providers
                                                                              that enable cloud computing capabilities. FedRAMP is a government-wide program that provides a standardized approach to
                         The Postal Service has not                           security assessment, authorization, and continuous monitoring for cloud products and services. FedRAMP is the result of the close
                                                                              collaboration of security and cloud experts from the NIST, the OMB, the Department of Defense, the Federal Chief Information
Table of Contents




                     defined “cloud computing” and                            Officer Council, and other federal agencies, as well as private industry. By providing a standardized approach, FedRAMP is
                                                                              designed to save money, time, and staff required to assess and authorize cloud services while ensuring adequate information
                       does not have an inventory of                          security.
                         cloud computing services.
                                                                              The Postal Service developed a cloud security policy9 that requires its CSPs to be FedRAMP-certified and lists the characteristics
                                                                              of cloud computing. These characteristics include on-demand scalability of highly available and reliable pooled computing
                                                                              resources, secure access to metered services from nearly anywhere, and displacement of data and services from inside to outside
                                                                              the organization.

                                                                              Conclusion
                                                                              The Postal Service’s cloud computing contracts did not comply with all of the Postal Service’s applicable standards. While the
Findings




                                                                              Postal Service has made progress towards adopting cloud computing technologies, opportunities exist to strengthen its cloud
                                                                              computing contract compliance with Postal Service standards and best practices. Specifically, the Postal Service has not:

                                                                              ■■ Clearly defined the terms “cloud computing” or “hosted services.”10

                                                                              ■■ Established an enterprise-wide inventory of cloud computing services.
Recommendations




                                                                              ■■ Required the supplier and their employees with access to Postal Service data to sign non-disclosure agreements.

                                                                              ■■ Included all required information security clauses in its cloud computing contracts.

                                                                              These steps have not been taken because there is no single group responsible for managing cloud services. In addition,
                                                                              Supply Management personnel believed the contracting officer (CO) had the discretion to waive the non-disclosure requirement.
                                                                              By assessing and implementing cloud computing best practices, the Postal Service will protect its data from security threats and
                                                                              help ensure its integrity and confidentiality. We claimed $33,517,151 in contractual costs for the Postal Service not following their
                                                                              policy and contract requirements. Some required security clauses were not included in the contracts we reviewed and the
                                                                              Postal Service did not require suppliers and their employees to sign non-disclosure agreements.
Appendices




                                                                              6	  A non-regulatory federal agency in the U.S. Department of Commerce. NIST’s mission is to promote U.S. innovation and industrial competitiveness by advancing
                                                                                  measurement science, standards, and technology in ways that enhance economic security and improve quality of life.
                                                                              7	 NIST Special Publication 800-145, The NIST Definition of Cloud Computing, dated September 2011.
                                                                              8	 Includes networks, servers, storage, applications, and services.
                                                                              9	 Handbook AS-805-H, Cloud Security, dated August 2013.
                                                                              10	 Hosted services are outsourced IT systems and functions offered by a provider that hosts the physical servers running that service somewhere else. Access to the service
                                                                                  is usually provided through a direct network connection or via the Internet.
                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                                                    Print                                               5
Highlights                                                                    In addition, in four contracts we reviewed we found that, while management assigned personnel to monitor the cloud services, they did not
                                                                              appropriately monitor the cloud service applications to ensure service level agreements (SLA)11 were performed or recognize applicable
                                                                              service credits.12 Also, the Postal Service did not require CSPs to become FedRAMP-certified, as required, or complete the Certification
                                                                              and Accreditation (C&A)13 process because personnel were not aware of all of the contractual obligations or the Postal Service’s cloud
                                                                              computing requirements.

                                                                              By requiring CSPs to become FedRAMP-certified, the Postal Service can leverage a standardized baseline of security controls and
                                                                              ensure cloud services are continuously monitored. In addition, requiring CSPs to complete the C&A process on Postal Service cloud
                                                                              computing applications mitigates the risk of a sensitive data breach.
Table of Contents




                                                                              Defining and Managing the Cloud Services Environment
                                                                              The Postal Service is not effectively managing cloud computing services, applications, and contracts. Specifically, it has not defined “cloud
                                                                              computing” and “hosted services.” In addition, it does not have an enterprise-wide inventory of cloud computing services and contracts.
                                                                              Without proper knowledge and control of the cloud environment, the Postal Service cannot properly secure cloud computing technologies
                                                                              and is at risk of unauthorized access to and disclosure of sensitive data.

                                                                              Defining Cloud Computing and Hosted Services
                                                                              The Postal Service has not clearly defined the terms “cloud computing” and “hosted services,” provided guidance on identifying and
                                                                              classifying cloud computing technologies, or listed detailed roles and responsibilities related to managing these technologies in its policy.14
Findings




                                                                              Rather, the policy15 provides an overview of cloud computing initiatives and lists general roles and responsibilities; therefore, management
                                                                              and personnel in various functional areas have different interpretations of cloud computing and its associated capabilities. Since cloud
                                                                              computing is an emerging technology, the Postal Service has not prioritized developing detailed guidance defining “cloud computing” and
                                                                              “hosted services,” identifying and classifying cloud computing technologies, and defining roles and responsibilities for managing cloud
                                                                              computing technologies. Without effective management of cloud computing technologies, the Postal Service cannot properly govern and
                                                                              assess the risk associated with these technologies.

                                                                              Cloud Computing Enterprise-Wide Inventory
Recommendations




                                                                              The Postal Service does not have an enterprise-wide inventory of cloud computing services that includes the name of the service, CSP,
                                                                              deployment model,16 service model,17 and contract number, as required by policy.18 There is not a single group responsible for managing



                                                                              11	 The SLA provides the quality of service parameters, monitoring, and enforcement according to defined policies. They usually cover availability, scheduled outages,
                                                                                  remedies for failure to perform, and service agreement changes.
                                                                              12	 Service credits are amounts deducted from charges payable to the supplier under the contract based on the duration of cloud service outages.
                                                                              13	 A formal security analysis and management approval process to assess residual risk before putting a resource into production.
                                                                              14	 Handbook AS-805-H.
                                                                              15	 Handbook AS-805-H.
                                                                              16	 There are four major cloud computing deployment models: Private Cloud - used by a single organization; Community Cloud - used by a specific community of consumers
                                                                                  from organizations with shared concerns, such as a shared mission; Public Cloud - used by the general public; and Hybrid Cloud - a composition of two or more distinct
Appendices




                                                                                  cloud infrastructures such as private, community, or public.
                                                                              17 There are three major cloud computing service models: Software as a Service - the capability provided to the consumer to use the CSP’s applications running on a cloud
                                                                                  infrastructure; Platform as a Service - the capability provided to the consumer to deploy onto the cloud infrastructure consumer-created or acquired applications created
                                                                                  using programming languages, libraries, services, and tools supported by the provider; and Infrastructure as a Service - the capability provided to the consumer to
                                                                                  provision processing, storage, networks, and other fundamental computing resources where the consumer is able to deploy and run arbitrary software, which can include
                                                                                  operating systems and applications.
                                                                              18	 Handbook AS-805, Information Security, Section 10-4.7, Maintaining Inventories, dated May 2013.
                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                                                     Print                                                6
Highlights                                                                    cloud services, including developing and maintaining an inventory of all cloud services. As a result, the Postal Service cannot effectively
                                                                              manage its cloud computing technologies and ensure the accountability and security of those technologies.

                                                                              We reviewed the Contract Authoring and Management System (CAMS)19 and the Enterprise Information Repository (EIR),20 which
                                                                              are the official systems of record for detailed information on Postal Service contracts and applications, and found no field reporting
                                                                              tool to identify cloud computing services or contracts or any readily available information. We attempted to develop a list of cloud
                                                                              computing services; however, knowledge of cloud computing services and contracts is dispersed among various groups, and the
                                                                              Postal Service’s IT and Supply Management groups did not always agree on which applications were cloud services.
Table of Contents




                                                                              During our audit, Postal Service management developed Management Instruction AS‑800-2014-4, Cloud Computing Policy, dated
                                                                              June 2014; however, the policy had not been issued as of August 7, 2014. This policy will define cloud computing, lists roles and
                                                                              responsibilities, and provides cloud computing procedures.

                                                                              Monitoring of Applications
                                                                              Postal Service management did not appropriately monitor the                                                21
                                                                                                                                                                                            and
                                                                                              22
                                                                                                 applications to ensure system availability and uptime percentages are met as required by the contract award
                                                                              package and policy.24 While management assigned personnel to monitor these two applications, they did not require a review and
                                                                                       23


                                                                              comparison of the applications uptime percentages to required availability percentages in the SLAs to recognize applicable service
                                                                              credits. For example, personnel responsible for monitoring the          application tracked outages using Remedy25 and developed
                                                                              outage reports based on information within Remedy. However, these reports did not contain specific details for         outages
Findings




                                                                              such as start time, end time, and outage duration.

                                                                              Personnel responsible for monitoring          manually tracked high impact outages26 using emails from the CSP. But they did not
                                                                              maintain reports for all outages or reports containing uptime percentages of the application. In addition, management did not
                                                                              ensure the supplier for         complied with all contractual obligations. For example, while the Postal Service issued Letters of
                                                                              Adequate Assurance to  27
                                                                                                                  supplier for significant system performance issues, it did not pursue service credits based on the
                                                                              supplier’s failure to meet uptime requirements. Also,           experienced four major outages where management did not calculate
Recommendations




                                                                              the actual service credits using the SLA requirements.




                                                                              19	 Provides Supply Management personnel with a web-based application to facilitate the solicitation, award, and administration of supplies, services, and transportation
                                                                                  contracts.
                                                                              20	 Provides a centralized storage and access location for standard corporate information resources.
                                                                              21	 A cloud-based solution that handles customer concerns, issues, and complaints; and supports the end-to-end process of initiating, routing, resolving, communicating, and
                                                                                  managing customer service requests.
                                                                              22	 A software as a service used to collect, store, and provide reporting on email and other electronic information used in litigation or for other internal Postal Service needs.
                                                                              23	 The contract award package provides all procedures, evaluation techniques, records of negotiation, and the best value determination that must be formally documented
                                                                                  and maintained in the contract file. The specific contract file documentation includes the requirements document, approved requisition, purchase plan, Statement of Work
Appendices




                                                                                  (SOW), evaluation documentation, contract award, award notification, and other documentation considered material for award purposes.
                                                                              24	 Handbook AS-805-H, Section 6-2.14, Availability of Postal Service Applications and Information; and Section 7-1, Contract Clauses; and Supplying Principles and
                                                                                  Practices, Section 2-16.7, Considerations for Using a Performance-Based-Contract; and Section 3-6.12, Contracting Officer Representatives, dated September 2013.
                                                                              25	 The problem tracking and reporting system that support organizations use to keep track of customer-reported problems or requests.
                                                                              26	 Outages that affect multiple users.
                                                                              27	 A written demand for adequate assurance is issued to a supplier for failure to maintain satisfactory performance under the contract and gives the supplier a specified
                                                                                  timeframe to assure the Postal Service corrective measures are being taken to address the issue.
                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                                                         Print                                                7
Highlights                                                                    These issues occurred because personnel did not use an automated mechanism such as the Enterprise System Monitoring
                                                                              (ESM)28 tools to adequately monitor the availability of      and        applications. In addition, personnel responsible for
                                                                              monitoring these applications were not aware of the requirements associated with the supplier’s contractual obligations,
                                                                              maintaining availability reports such as uptime percentages of applications and detailed outages, and recognizing service credits.
                                                                              The Postal Service needs to adequately monitor applications so it can measure the supplier’s performance, ensure achievement
                                                                              of agreed-upon service, and recognize applicable service credits.

                                                                              During this audit, the Postal Service began receiving and maintaining availability reports for the                                          application; therefore, we
                                                                              are not making a recommendation regarding monitoring and maintaining availability reports for                                           .
Table of Contents




                                                                              Contract Management
                                                                              Postal Service management did not ensure the supplier’s compliance with all contractual obligations as required by policy.29
                                                                              Specifically, management did not include information security clauses30 in one of the four contracts we reviewed. In addition,
                                                                              cloud computing contract clauses in these four contracts did not specifically address investigative, forensic, and audit access.
                                                                              Also, management did not require the supplier and its employees with access to Postal Service information to sign non-disclosure
                                                                              agreements in accordance with Postal Service cloud service contracts.

                                                                              As a result, the Postal Service’s cloud computing environment is at increased risk of unauthorized access, use, disclosure, and
                                                                              modification. We claimed $33,517,151 in contractual costs for the Postal Service not following its policy and contract requirements.
                                                                              Some required security clauses were not included in the contracts we reviewed, and the Postal Service did not require suppliers
Findings




                                                                              and their employees to sign non-disclosure agreements.

                                                                              Information Security Contract Clauses
                                                                              The Postal Service did not include Clause 4-19, Information Security Requirements,31 in the           contract as required by policy.32
                                                                              Clause 4-19 requires suppliers to comply with policies in Handbooks AS-805 and AS-805-A,33 cooperate with the Postal Service in
                                                                              completing the application Business Impact Assessment to identify the sensitivity and criticality of the application, determine and
Recommendations




                                                                              comply with information security requirements, and mitigate all security vulnerabilities identified during site security reviews. The
                                                                              CO only included a reference to Handbook AS-805 and not the entire Clause 4-19. Without information security contract clauses,
                                                                              the Postal Service’s data is at increased risk of potential exposure and a security breach.

                                                                              In addition, one of the four contracts we reviewed was awarded after Handbook AS‑805-H, Cloud Security, was established. But
                                                                              the contract did not include language requiring the CSP to comply with Handbook AS-805-H. This occurred because
                                                                              Supply Management has not developed contracting language for including Handbook AS‑805‑H.
Appendices




                                                                              28	 Provides standardized monitoring and reporting services and manages systems used for monitoring Postal Service web sites (internal and external facing).
                                                                              29	 Supplying Principles and Practices, Section 5-7.1.3, Performance Indicators; Section 5-7.2, QAP and Examination; and Section 6-2.12, CORS.
                                                                              30	 Clause 4-19, Information Security Requirements.
                                                                              31	 Supplying Principles and Practices contains clauses and provisions that are required to be included in contracts. Clause 4-19 should be in all contracts relating to IT and
                                                                                  information gathering.
                                                                              32	 Supplying Principles and Practices, Section 8-4.10, Clauses.
                                                                              33	 Handbook AS-805-A, Information Resource Certification and Accreditation Process, dated April 2012.
                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                                                       Print                                                    8
Highlights                                                                    The U.S. Postal Service Office of Inspector General (OIG) recently issued a report34 regarding cloud computing contracting
                                                                              clauses that noted the Postal Service included language in 13 cloud computing contracts35 to address privacy concerns; however,
                                                                              the contracts did not adequately address information accessibility and data security for network access and server locations. The
                                                                              OIG recommended the Postal Service include requirements from Handbook AS-805 and Handbook AS-805-H in future cloud
                                                                              computing contracts regardless of data sensitivity; therefore, we will not issue a recommendation regarding this issue.

                                                                              Best Practices for Cloud Computing Contracts
                                                                              The Postal Service’s cloud computing contracts did not completely address the Postal Service’s and OIG’s access to CSP facilities
Table of Contents




                                                                              or investigative, forensic, or audit access. We benchmarked the Postal Service’s contract clauses with those of other federal
                                                                              agencies. We found the Postal Service’s contract clauses did not address best practices recommended by the NIST, the
                                                                              Chief Information Officers and Chief Acquisition Officers councils, and the Federal Acquisition Regulation (FAR). For example, the
                                                                              contract clauses did not completely address the following:

                                                                              ■■ Allow the Postal Service access to the CSP’s facilities, installations, technical capabilities, operations, documentation, records,
                                                                                 and databases.

                                                                              ■■ Allow the Postal Service to conduct forensic investigations for both criminal and non-criminal purposes without interference
                                                                                 from the CSP.

                                                                              ■■ Allow the CSP to only change the cloud environment under specific standard operating procedures agreed to by the CSP and
Findings




                                                                                 the Postal Service.

                                                                              ■■ Require contractors to fully cooperate with law enforcement by disclosing sufficient information to identify the nature and extent
                                                                                 of an offense, as well as provide timely responses to government auditors’ and investigators’ requests for documents and
                                                                                 access to employees.

                                                                              ■■ Address procedures for electronic discovery36 when conducting a criminal investigation.
Recommendations




                                                                              ■■ Grant the OIG access to examine those contractor or subcontractor records pertaining to and involving transactions relating to
                                                                                 the contract or subcontract and interview any officer or employee regarding such transactions.

                                                                              ■■ Allow the OIG full and free access to the contractor’s and subcontractor’s facilities, installations, operations, documentation,
                                                                                 databases, and personnel used to conduct audits, inspections, investigations, or other reviews.

                                                                              Supply Management was not familiar with specific cloud computing contract clauses or best practice clauses to address
                                                                              investigative, forensic, and audit access. Without cloud computing best practice clauses, the Postal Service’s cloud computing
                                                                              environment is at increased risk of unauthorized access, use, and modification.
Appendices




                                                                              34	 Cloud Computing Contract Clauses (Report Number SM-MA-14-005, dated April 30, 2014).
                                                                              35	 Only one of the contracts we reviewed           was in this listing of 13 contracts.
                                                                              36	 The process of locating, preserving, collecting, processing, reviewing, and producing electronically stored information in the context of civil litigation or investigation.
                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                                                            Print                                                9
Highlights                                                                    Non-Disclosure Agreements
                                                                              Of the four contracts we reviewed, only one supplier signed a non-disclosure agreement required by its contract.37 In addition,
                                                                              the signed agreement did not require all employees with access to Postal Service data to sign non-disclosure agreements.
                                                                              Supply Management personnel believed the CO had the discretion to waive this requirement and deemed completion of security
                                                                              clearances by key supplier personnel dealing with Postal Service data sufficient to meet this contractual requirement. As a result,
                                                                              suppliers and their employees may not be aware of or adhering to nondisclosure requirements, placing sensitive Postal Service
                                                                              information at risk of unauthorized disclosure.
Table of Contents




                                                                              Compliance with the Federal Risk and Authorization Management Program and the
                                                                              Certification and Accreditation Process
                                                                              The Postal Service’s CSPs for         ,      , and              38
                                                                                                                                                 are not FedRAMP-certified nor have they initiated the process
                                                                              to become FedRAMP-certified. Also, the Postal Service deployed all three of the applications in our sample prior to completing
                                                                              the C&A process. Specifically, the Corporate Information Security Office (CISO) issued a letter stating the        is not compliant
                                                                              with Handbook AS-805 and Payment Card Industry Data Security Standards (PCI DSS) due to outstanding security deficiencies.
                                                                                                                                                                       39


                                                                              The CISO also issued a letter for the       application stating that adequate security controls and processes have not been
                                                                              implemented and the application is not compliant with Handbook AS-805. However, management has not mitigated or accepted
                                                                              the identified risks for     and        to complete the C&A process. In addition, the                application was deployed into
                                                                              production, but the CSP has not completed the required C&A documentation.
Findings




                                                                              Policy40 requires CSPs to become FedRAMP-certified and work with the Postal Service to certify and accredit that the service
                                                                              being provided follows the Postal Service’s Information Security C&A process. Postal Service personnel were not aware FedRAMP
                                                                              certification was a requirement and did not require completion of C&A documentation prior to deploying the applications. Without
                                                                              adequate security controls and processes in place, the Postal Service’s cloud applications that store sensitive data are at
                                                                              increased risk of a potential security breach.
Recommendations




                                                                              37	 Postal Service Contract Clause 1-1(b)(2), Privacy Protection, Use, Ownership, and Nondisclosure, explicitly states the supplier must restrict access to such information
Appendices




                                                                                  to those employees who need the information to perform work under the contract and ensure that these employees, including subcontractors’ employees, sign non-
                                                                                  disclosure agreements in a form suitable to the CO, prior to being granted access to the information.
                                                                              38	               delivers a cloud-based enterprise platform for digital experience marketing called the Distributed Engagement Channel (DEC). DEC is used to create,
                                                                                  distribute, and measure dynamic brand experiences across multiple sites and devices on a global scale, such as YouTube.
                                                                              39	 PCI DSS provides a framework for developing a robust payment card data security process including prevention, detection, and appropriate reaction to security incidents.
                                                                              40	 Handbook AS 805-H, Section 6-2.1, Cloud Security Providers; and Section 6-2.8, Certification and Accreditation; and Handbook AS-805, Section 8-4, Certification and
                                                                                  Accreditation.
                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                                                    Print                                              10
Highlights
                    Recommendations                                           Recommendations
                                                                              We recommend the vice president, Information Technology, in coordination with the manager, Corporate Information Security:

                                                                              1.	 Implement an enterprise-wide definition of cloud computing and hosted services, guidance on identifying and classifying cloud
                                                                                  computing technologies, and detailed roles and responsibilities for managing cloud computing technologies.

                                                                              We recommend the vice president, Information Technology, in coordination with the vice president, Supply Management, and
                       We recommend management                                manager, Corporate Information Security:
Table of Contents




                          define “cloud computing”
                                                                              2.	 Assign a group the responsibility for managing cloud services, including establishing and maintaining an enterprise-wide
                            and “hosted services,”                                inventory of all cloud computing technologies.

                       develop an inventory of cloud                          We recommend the vice president, Information Technology:

                         services, monitor suppliers
                                                                              3.	 Evaluate automated monitoring capabilities, such as the Enterprise System Monitoring tools, to determine their feasibility to
                     and require them to be certified,                            monitor the availability of Postal Service cloud applications.

                      and revise contracts to include                         We recommend the vice president, Supply Management, in coordination with the vice president, Information Technology:

                                 security clauses.
                                                                              4.	 Monitor the                                     supplier to ensure compliance with all contractual obligations, including service
Findings




                                                                                  level agreements, and recognize any applicable service credits. Also, develop and maintain availability reports such as uptime
                                                                                  percentages of the application and detailed outage reports for the                                    .

                                                                              We recommend the vice president, Supply Management:

                                                                              5.	 Direct contracting officers to include all appropriate information technology clauses in Postal Service cloud computing
                                                                                  contracts, revise the                       contract to include Clause 4-19, Information Security Requirements, and comply with
Recommendations




                                                                                  the requirement that all suppliers and their employees sign nondisclosure agreements.

                                                                              We recommend the vice president, Supply Management, in coordination with the vice president, Information Technology, and
                                                                              manager, Corporate Information Security:

                                                                              6.	 Evaluate best practices for cloud computing contract clauses that address investigative, forensic, and audit access for
                                                                                  incorporation into existing and future cloud computing contracts.

                                                                              7.	 Require cloud service providers of current and future cloud computing contracts to become Federal Risk and Authorization
                                                                                  Management Program-certified in accordance with Postal Service policy.
Appendices




                                                                              We recommend the vice president, Information Technology, in coordination with the manager, Corporate Information Security:

                                                                              8.	 Complete the Certification and Accreditation process to either accept or mitigate the risks for the
                                                                                        ,                     , and              applications.

                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                           Print                                  11
Highlights                                                                    Management’s Comments
                                                                              Management agreed with the intent of the findings and all of the recommendations except for recommendation 7, to which they
                                                                              partially agreed. Management stated they have recognized the need to address issues surrounding cloud computing services
                                                                              and drafted a handbook on cloud computing policy. Further, management noted that the             and        applications were
                                                                              “hosted services,” not “cloud services,” conflicting with what was discussed with the Postal Service during the audit. As a result,
                                                                              management believes the financial risk noted by the OIG was inaccurate.

                                                                              Regarding recommendation 1, management agreed to update Handbooks AS-805 and AS-805-H, and to publish
Table of Contents




                                                                              Management Instruction AS-800-2014-4, to provide clarity on cloud computing and hosted services, including definitions, roles,
                                                                              and responsibilities. The target implementation date is October 31, 2014.

                                                                              Regarding recommendation 2, management agreed to assign a single group responsibility for managing cloud services
                                                                              and maintaining an enterprise-wide inventory of all cloud computing technologies. The target implementation date is
                                                                              December 31, 2014.

                                                                              Regarding recommendation 3, management agreed to evaluate automated monitoring capabilities to monitor cloud applications.
                                                                              The target implementation date is March 31, 2015.

                                                                              Regarding recommendation 4, management agreed to ensure supplier compliance and determine whether service credits are due
                                                                              to the Postal Service. The target implementation date is December 31, 2014.
Findings




                                                                              Regarding recommendation 5, management agreed to issue a communication to all COs regarding the requirement to include
                                                                              all appropriate information technology clauses in cloud computing contracts. Management also agreed to include Clause 4-19,
                                                                              Information Security Requirements, in the                    contract and require supplier level certification and non-disclosure
                                                                              agreements. The target implementation date is January 31, 2015.

                                                                              Regarding recommendation 6, management agreed to evaluate best practices to determine if it would be in the best interest of the
Recommendations




                                                                              Postal Service to modify its existing contract clauses. The target implementation date is February 28, 2015.

                                                                              Regarding recommendation 7, management agreed to perform an assessment of existing cloud computing contracts to determine
                                                                              the capability, risk, and associated costs of FedRAMP certification. Management agreed to follow policy requirements for
                                                                              FedRAMP certification for future cloud computing contracts. The target implementation date is February 28, 2015.

                                                                              Regarding recommendation 8, management agreed to complete the certification and accreditation process for each cited
                                                                              application. The target implementation date is December 31, 2014.

                                                                              See Appendix B for management’s comments, in their entirety.
Appendices




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                          Print                                     12
Highlights                                                                    Evaluation of Management’s Comments
                                                                              The OIG considers management’s comments responsive to the recommendations in the report. While management partially
                                                                              agreed with recommendation 7, the OIG considers management’s alternate action to be responsive. Regarding management’s
                                                                              comments on the assessment of financial risk, the OIG assessed this risk based on the requirements included in the applications’
                                                                              contracts, not on whether the application was classified as a “cloud service” or a “hosted service.”

                                                                              The OIG considers recommendations 1, 2, 5, 7, and 8 significant, and therefore requires OIG concurrence before closure.
                                                                              Consequently, the OIG requests written confirmation when corrective actions are completed. These recommendations should not
Table of Contents




                                                                              be closed in the Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendation
                                                                              can be closed.
Findings
Recommendations
Appendices




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                       Print                                 13
Highlights
                    Appendices

                                                                              Appendix A: Additional Information...........................................................15
                                                                               Background ...........................................................................................15
                                                                               Objective, Scope, and Methodology.......................................................15
                          Click on the appendix title                          Prior Audit Coverage..............................................................................17
Table of Contents




                                                                              Appendix B: Management’s Comments....................................................18
                          to the right to navigate to
                               the section content.
Findings
Recommendations
Appendices




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                              Print                       14
Highlights          Appendix A:                                               Background
                    Additional Information                                    Cloud computing is a model for enabling convenient, on-demand network access to a shared pool of configurable computing
                                                                              resources41 that can be rapidly provisioned and released with minimal management effort or CSP interaction. Cloud computing
                                                                              means different things to different people and determining the appropriate cloud computing environment is essential. Cloud
                                                                              computing offers a unique opportunity for federal agencies and public and private companies to take advantage of cutting-edge
                                                                              information technologies to reduce procurement and operating costs and increase the efficiency and effectiveness of services
                                                                              provided to their customers. Specifically, cloud computing enables organizations to purchase a broad range of IT services and
                                                                              only pay for services as they are used and increase capacity levels without investing in new systems, training new personnel, or
Table of Contents




                                                                              licensing new software. This way of doing business allows cloud service providers to offer access to services “in the cloud” through
                                                                              a web browser (over the Internet) while storing business software, infrastructure, and government data on remote servers and, in
                                                                              some cases, with hardware and software owned by the cloud service provider.

                                                                              FedRAMP enables federal agencies to manage service providers that enable cloud computing capabilities. It is a
                                                                              government-wide program that provides a standardized approach to security assessment, authorization, and continuous
                                                                              monitoring for cloud products and services. This approach uses a “do once, use many times” framework that will save the money,
                                                                              time, and staff required to conduct redundant agency security assessments. FedRAMP helps ensure that those cloud-based
                                                                              services used government-wide provide adequate information security, eliminates duplicate efforts, reduces risk and cost, and
                                                                              enables rapid and cost-effective procurement of applications and services for federal agencies.

                                                                              The Postal Service is committed to creating and maintaining an environment that protects its information resources from
Findings




                                                                              unauthorized access, use, disclosure, disruption, modification, or destruction to help ensure integrity, confidentiality, and
                                                                              availability. While aspects of cloud characteristics have been realized, cloud computing remains a “work in progress.” Cloud
                                                                              computing leverages economies of scale and balances resources among CSPs. These CSPs provide the cloud computing
                                                                              services specified in their contracts to meet the Postal Service’s operational and security concerns. The Postal Service’s policy
                                                                              requires its CSPs to become FedRAMP-certified, ensuring there is adequate information security. It is important to review
                                                                              standard contract clauses because of the nature of cloud computing. Because the cloud can be used to outsource critical internal
                                                                              infrastructure and the interruption of that infrastructure may have wide-ranging effects, contracts should address data protection,
Recommendations




                                                                              security, privacy, storage locations, and transfer; law enforcement access; confidentiality; and non-disclosure. The cloud computing
                                                                              environment must protect information resources critical to the Postal Service and the privacy of its employees and customers;
                                                                              comply with applicable standards; and assign responsibilities for governance to Postal Service officers, executives, managers,
                                                                              employees, contractors, partners, and vendors.

                                                                              Objective, Scope, and Methodology
                                                                              Our objectives were to determine if the Postal Service’s cloud service contracts comply with applicable standards and evaluate
                                                                              management’s efforts at adopting cloud computing technologies.

                                                                              To accomplish our objectives, we reviewed policies, procedures, and practices for cloud computing governance and security.
                                                                              We met with a contractor who has expertise in the cloud computing field and federal agencies to identify cloud computing best
Appendices




                                                                              practices and policies. We also reviewed private industry (Fortune 500 companies) standards for benchmarking purposes. We
                                                                              requested cloud computing inventories of all Postal Service cloud services, applications, providers, and contracts from

                                                                              41	 For example, networks, servers, storage, applications, and services.
                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                         Print                                 15
Highlights                                                                    Postal Service senior management and personnel within the Supply Management, IT, the CISO, Product Information, and other
                                                                              business units. We received listings of cloud services and contracts, as well as documentation related to the cloud service from
                                                                              several Postal Service officials based on their knowledge of cloud computing services, contracts, and applications. Based on the
                                                                              listings and documentation we received, we piecemealed the information into a listing of 25 cloud services with their corresponding
                                                                              application, CSP, cloud model and type, contract number, and other contract-related information.

                                                                              To determine our sample, we reviewed the listing for cloud services; applications associated with the services; cloud deployment
                                                                              and service models; sensitivity and criticality levels; whether the application maintained personally identifiable information; and
                                                                              the contract value. We interviewed Supply Management, IT, business owners, and CISO personnel responsible for cloud services
Table of Contents




                                                                              to obtain background information on the applications and contracts to develop our sample selection to ensure agreement among
                                                                              all parties on the application’s role as a cloud service. We judgmentally selected a sample of four cloud computing contracts
                                                                              for three cloud applications for review: two         contracts, one        contract, and one              contract valued at about
                                                                              $33,517,151.

                                                                              We requested contract information from these groups for each cloud service and reviewed the CAMS and EIR for contract file
                                                                              information. Based on our survey results, we performed a detailed evaluation of supporting documentation for the four cloud
                                                                              service contracts to include contract modifications, signed solicitation agreements, requests for proposals, SOWs, purchase
                                                                              plans, terms of service, SLAs, technical requirements, award determinations, non-disclosure agreements, performance reports,
                                                                              FedRAMP compliance, and cloud computing C&A documentation. Based on our review of the contract file documentation, we
                                                                              interviewed Postal Service managers and contracting personnel responsible for the cloud services to determine whether cloud
Findings




                                                                              service contracts clearly defined the responsibilities of all parties; defined performance in clear terms; identified how performance
                                                                              will be measured, reported, and enforced; and determined how they monitored the cloud computing providers and services. We
                                                                              used the results of our review to determine areas within the Postal Service cloud computing environment that warrant additional
                                                                              improvement in appropriately governing and securing cloud resources.

                                                                              We conducted this performance audit from January through September 2014, in accordance with generally accepted government
                                                                              auditing standards and included such tests of internal controls as we considered necessary under the circumstances. Those
                                                                              standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
Recommendations




                                                                              our findings and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable basis for
                                                                              our findings and conclusions based on our audit objective. We discussed our observations and conclusions with management on
                                                                              August 7, 2014, and included their comments where appropriate.

                                                                              We assessed the reliability of the cloud computing inventory data by interviewing Postal Service officials and reviewing the cloud
                                                                              computing systems in the EIR and CAMS. We determined that the data were not sufficiently reliable for the purposes of this report
                                                                              and we made a recommendation regarding this finding.
Appendices




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                          Print                                   16
Highlights                                                                    Prior Audit Coverage
                                                                                                                                                                                            Monetary Impact
                                                                              Report Title                      Report Number                            Final Report Date                    (in millions)
                                                                              Cloud Computing Contract
                                                                                                                SM-MA-14-005                                  4/30/2014                           None
                                                                              Clauses
                                                                              Report Results:
                                                                              The audit concluded that 13 Postal Service cloud computing contracts did not address information accessibility and data security
                                                                              for network access and server location. Postal Service officials also exempted a cloud supplier from following certain policies
Table of Contents




                                                                              because the contract did not contain sensitive data. Contracting officials expressed concerns that including the policy in existing
                                                                              cloud computing contracts could increase contract cost. Management generally agreed with the recommendations, all of which we
                                                                              considered significant.
                                                                              Availability of Critical
                                                                                                                IT-AR-13-008                                  9/25/2013                           None
                                                                              Applications
                                                                              Report Results:
                                                                              The audit concluded that the Postal Service is proactive in monitoring the Facility Access and Shipment Tracking, PostalOne!-
                                                                              Business Customer Support System, and usps.com applications to ensure they meet established availability targets and updates
                                                                              processes for incident, change, and availability data. However, the Postal Service was not effective in ensuring its Point-of-Service
                                                                              (POS) retail terminal operations, considered a critical application, met availability targets. Employees are not following policy,
                                                                              performing real-time monitoring of POS terminals, determining the duration of outages to ensure availability targets are met, or
                                                                              maintaining availability reports. Management did not agree with the majority of the recommendations, all of which we considered
Findings




                                                                              significant.
                                                                              U.S. Postal Service Cloud
                                                                                                                IT-AR-12-006                                  5/9/2012                         $5,300,000
                                                                              Computing
                                                                              Report Results:
                                                                              The audit concluded that opportunities exist for the Postal Service to use cloud computing technologies to support IT operations,
                                                                              resources, and infrastructure. However, no overarching adoption strategies exist to determine which cloud deployment and service
                                                                              models are best suited for current IT operations and resources. Specifically, the Postal Service does not have a consistent strategy
                                                                              or approach for determining the risks and benefits of implementing cloud computing technologies. Management agreed with the
Recommendations




                                                                              recommendations, one of which was considered significant.

                                                                              Additional Guidance Needed
                                                                              to Address Cloud Computing        GAO-12-130T                                   10/6/2011                           None
                                                                              Concerns
                                                                              Report Results:
                                                                              The audit concluded that cloud computing has both positive and negative information security implications for federal agencies.
                                                                              Potential information security benefits include: the use of automation to expedite secure configurations on devices, broad network
                                                                              access, and low-cost disaster recovery and data storage. However, 22 of 24 major federal agencies reported they were either
                                                                              concerned or very concerned about the potential information security risks associated with cloud computing. Risks include
                                                                              dependence on security practices and assurance of vendors and sharing of computing resources. Many agencies also had
                                                                              concerns about vendor compliance and implementation of government information security requirements. Recommendations were
Appendices




                                                                              not issued for management action.




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                                            Print                                     17
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                              Print   18
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                              Print   19
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                              Print   20
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                              Print   21
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                              Print   22
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                              Print   23
Highlights
Table of Contents
Findings




                                                                                 Contact us via our Hotline and FOIA forms, follow us on social
                                                                              networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                                     or abuse. Stay informed.
Recommendations




                                                                                                    1735 North Lynn Street
                                                                                                   Arlington, VA 22209-2020
                                                                                                         (703) 248-2100
Appendices




                    Management of Cloud Computing Contracts and Environment
                    Report Number IT-AR-14-009
                                                                                                                                                       Print   24
